LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 21-146:

August 31, 2021

CHRISTINE CLIFFORD (AS ADMINISTRATOR OF THE ESTATE OF JOHN CLIFFORD), ET AL. V. RICHARD
FEDERMAN, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondents Todd Guthrie and TechCXO on August 31, 2021 I
caused service to be made pursuant to Rule 29 on counsel for Petitioners and other Respondents:
PETITIONERS:
Carl J. Serrano
Brach Eichler
101 Eisenhower Parkway
Roseland, NJ 07068
Attorney for Christine Clifford (as
Administrator For the Estate of John
Clifford), Craig Clifford, Scott
Clifford, Paul Clifford, Stephen
Dazzo, Kasolas Family & Friends VG
Investment, LLC, and Jersey Cord
Cutters, LLC
973-228-5700
csoranno@bracheichler.com
RESPONDENTS:
Henry Milton Quillian III
Taylor English Duma LLP
1600 Parkwood Circle, Suite 200
Atlanta, GA 30339
678-336-7184
hquillian@taylorenglish.com
On behalf of Richard Federman
John Campbell Stivarius Jr.
Elarbee, Thompson, Sapp & Wilson, LLP
229 Peachtree Street, NE; Suite 800
Atlanta, GA 30303
404-582-8423
stivarius@elarbeethompson.com
On behalf of Robert Half International
Heather Clippard, pro se
2228 Myra Lane
Snellville, GA 30078

James Larry Stine, Esq.
Wimberly Lawson
3400 Peachtree Road, NE
Suite 400 - Lenox Towers
Atlanta, GA 30326
jls@winlaw.com
On behalf of Winston Johnson,
Winsonic Digital Media Cable
Systems Holdings, Inc., Winsonic
Digital Media Group, Ltd., Winsonic
Digital Cable Systems Network Ltd.,
Lori Poole, Doc Maandi Movies, LLC,
DMM- Expendables 3 LLC, Maandi
Media Productions Digital LLC,
Maandi Media Productions LLC,
Maandi Park MS LLC, Maandi Media
Holdings International LLC,
Kimberlyte Productions, 2496 Digital
Distribution LLC, 1094 Digital
Distribution LLC, SST Swiss
Sterling, Inc., Winsonic Digital Cable
Systems Network Holdings, Ltd.
James Johnson, Esq.
Knight Johnson, LLC
One Midtown Plaza
1360 Peachtree Street NE
Suite 1201
Atlanta, GA 30309
james@johnsontrial.com
On behalf of Katie Ashcraft, Building
Consulting, LLC, Ashcraft Opperman
& Associates, LLC

Ivy Neal Cadle, Esq.
Baker Donelson Bearman Caldwell &
Berkowitz, P.C.
Monarch Plaza, Suite 1500
3414 Peachtree Road, NE
Atlanta, GA 30326-1164
icadle@bakerdonelson.com
On behalf of Justin Su and Cascade
Northwest, Inc.
Thomas Reynolds
Reynolds Law Group
Suite 1100
3390 Peachtree Road
Atlanta, GA 30326
treynolds@thomasreynoldslaw.com
On behalf of Patrick Shaw and
Rickshaw Productions, LLC
Jeffrey L. Schultz, Esq.
Armstrong Teasdale, LLP-MO
Suite 1800
7700 Forsythe Blvd.
St. Louis, MO 63105
jschultz@atllp.com
On behalf of Kristy Thurman and KT
Communications Consulting, Inc.
Daryl Arthur & Megatone Music,
LLC, pro se
44B Town Square
Blairsville, GA 30512
Robert Kostensky, pro se
132 Cole Street NE
Marietta, GA 30060-1752

This service was effected by depositing three copies of the Brief in Opposition filed by Todd Guthrie and TechCXO LLC in
an official "first class mail" receptacle of the United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Sworn and subscribed before me this 31st day of August 2021.

Jack Suber, Esq.
Principal

